I
I
                                            NATIONAL SCIENCE FOUNDATION
                                             OFFICE OF INSPECTOR GENERAL
                                      L
                                               OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM



    Subject: Closeout Memo                                                                   Page 1 of 1


          There was no closeout written at the time this case was closed. The following information was
          extracted fiom the file in conformance with standard closeout documents.

          Our office was informed that the subject' was alleged to have committed minor misrepresentations
          and reckless and intentional false statements. These allegations were reported to the affected NSF
          division and the subjects were sanctioned.

         Accordingly this case is closed.




                    Prepared by:                     Cleared by:
                  Agent:           Attorney:       Supervisor:     AIGI
      Name:


    Signature &
       date:
                       NATIONAL SCIENCE FOUNDATION
                             1800 G STREET. N.W.
                            WASHINGTON. D.C. 20550




   INSPECTOR GENERAL




         OIG Case Number I92030008




This document is loaned to you FOR OFFICIAL USE ONLY. It remains the
property of the Office of Inspector General. It may not be reproduced. It
may be disclosed outside of NSF only by the Inspector General, pursuant to
the Freedom of Information and Privacy Acts, 5 U.S.C. 5s 552, 552a.
A            i                      E OF CAR POOL PROGRAM
                                    BY NSF EMPLOYEES
                       (Investigation Report - Case No. 192030008)




    Basis for lnvestiqation

    In response to allegations of abuse, the Office of Inspector
    General (OIG) conducted an audit of the NSF car pool parking permit
    program in 1990. The audit uncovered systemic weaknesses and made
    recommendations for improvement, including amending application
    forms to warn NSF employees about submitting false information.
    In 1992, OIG received new allegations of abuse in the NSF car pool
    parking permit program.      Allegedly seven NSF employees had
    submitted fraudulent car pool applications listing the names of
    false riders.      These seven employees allegedly were not
    participants in car pools, but were driving to work alone.
    Because of these new allegations, we began an investigation of
    these seven car pool applications, under the authority of the
    Inspector General Act of 1978, as amended (5 U.S .C. app.) . We
    later expanded this investigation to include reviewing 70 car pool
    applications.

    Background

    NSF P a r k i n g P e r m i t . P r o g r a m

    NSF employees who commute to work by car pool are entitled to
    subsidized parking spaces. NSF subsidizes half of the monthly
    parking cost for each car pool awarded a parking permit. NSF
    subsidizes 162 car pools at a cost of over $150,000 per year.
    According to NSF Manual 1, Chapter V, Subchapter 200, "The
Foundation encourages the optimum use of automobile parking spaces
through the formation of car pools.11
A regular (type llCw)   car pool membership must have at least two
 full-time participants.' At least one of the participants in the
 car pool must be a full-timeNSF employee, who is designated as the
p-i;ncikd ufi;ver hT-i    car pool.    e car pool must operate on a
 regular basis with participants riding to and from work daily,
except for leave, travel, and other temporary absences. Permit
holders park in spaces located in or near government-leased
buildings. Permit holders must observe the rules established by
 the parking facility operator and must assume responsibility for
resolving parking problems.
Interested employees submit applications for parking permits every
6 months. NSF's Division of Administrative Services ( D A S ) , which
administers the parking program, awards permits semiannually in
March and September.      DAS issues bulletins to all employees
announcing the upcoming permit competition and stating competition
rules.     In order to apply for a car pool parking permit, an
employee must complete NSF Form 566, ltAPPLICATIONFOR PARKING
PERMIT," and submit it to DAS. The application form requires that
car pool participants record their employee number, riding
frequency, and Service Computation Date (SCD)2, if this
information applies to them.      Car pool participants are also
required to sign their names on the form to certify the accuracy of
the recorded information. Although each participant is responsible
for the accuracy of the information recorded about them, the
principal driver of the car pool is responsible for the accuracy of
all information recorded on the form.           Form 566 cautions
participants about submitting false information by stating the
following: "Warning: Employees who submit fraudulent applications
will have parking privileges revoked for a minimum of six
months. ls3 This warning is in accordance with the ~ederalProperty
and Management Regulations, Section 101-20.117-4,which prescribes
that parking privileges in a federal facility must be revoked for
a minimum of 6 months for misrepresentation of car pool membership,

     'NSF parking spaces are available for handicapped employees,
but this priority allocation requires certification from NSF1s
Director of Health Services. Designated "key executive^^^ are also
issued parking permits.       Unlike car pool parking permit
applications,.those for handicapped employees and key executives
are not competed, and are not included in this review.
     2~hedate of initial entry into federal service. This date is
routinely used by personnel offices when determining employment
benefits, such as annual leave.
     3The application form was amended to include this warning in
response to the 1990 OIG audit recommendations.
        application qualifications, or for violation of other agency car
        pool practices and requirements.
        After DAS makes an initial review of the applications, the Office
        of Information Systems (01s) processes the applications and
        calculates applicant points, which determine who receives a p
                                                                    a
                                                                    -
                                                                    &
        pemmic. polnts are based primarily on years of federal government
        service, the number of car pool participants, and the frequency of
        car pool riders.     Each car pool participant who is a current
        federal employee gets one point for each year of service,
        determined by the SCD. All NSF participants receive an additional
        10 points. Participants who do not ride both to and from work each
        day are given one point for each scheduled one-way trip during a 1-
        week period (e.g., a car pool member who rides to and from work 3
        days per week .would receive six points) .   After the points are
        calculated, car pools are ranked and those with the most points are
        awarded permits. In the past, almost all applicants were awarded
        a car pool permit because of limited competition.
        Car pool permits are awarded for a 6-month period, beginning April
        1 and October 1. Permits must be picked up and paid for by the
        fourth day of each month in the semiannual period or DAS revokes
        the permit for the remainder of the period. If car pool membership    -
        drops below two full-time participants, the permit expires at the
        end of the month unless another full-time rider is recruited.
        During the most recent semiannual period, October 1992 to March
        1993, each car pool paid $82.50 per month to park at the 1800 G
        Street fa~ility;~   $82.50 per month to park at the 2000 L Street
        facility; and $62.50 per month to park at the 1110 Vermont Ave
        facility. NSF matched these costs.
        In the semiannual period ended March 30, 1993, NSF contracted for
        approximately 183 parking spaces for allocation to this system.'
        There were 163 parking spaces located in the G Street facility, 9
        spaces located at the L Street facility, and 11 spaces located at
        the Vermont Avenue facility.     In 1992, NSF spent a total of
        $185,147.50 to subsidize parking. Of that amount, $167,310 was
1       spent to subsidize parking at the G Street facility, $8,985 at the
        L Street facility, and $8,852.50 at the Vermont Avenue facility.

I
I       1990 OIG Audit
    I

        In response to allegations of abuse, OIG conducted an audit of the
        agency parking permit program in 1990. The findings of the audit

             *~ffectiveFebruary 1, 1993, the rate at 1800 G Street was
        increased to $84 per month.
              he actual number fluctuated from month to month due to car
        pool terminations and new registrations.
      supported the continuation of the current car pool parking permit
      program.   However, the audit uncovered many weaknesses in the
      program, including a lack of understanding of program requirements.
      The audit also found a need for greater accuracy in the screening
      of information submitted on application fonns. As a result, OIG
      made several systemic recommendations to DAS to make the program
more-e-ffemve        ana efricient. DAS concurred with and implemented
      the recommendations. Notices were then issued to all NSF staff
      reminding them of the rules that apply to parking permits. In
      addition, the application forms were amended to include the
      statement, llWarning:Employees who submit fraudulent applications
      will have parking privileges revoked for a minimum of six months.I1

         Recent Allegation
                                                              -
         In 1992, we received subsequent allegations of abuse in the car
         pool parking permit program. In response, we reviewed the parking
         permit applications of seven employees.     We identified false
         information when we analyzed these parking permit applications.
         Based on this, we expanded our investigation to include reviewing
         the parking permit applications of 70 employees.      Our review
         covered parking applications submitted during four semiannual
         competitions:    March 1991, September 1991, March 1992, and
         September 1992.



         Of the 70 applications reviewed, we found that 37 listed accurate
         information. On the remaining applications, we found a total of 21
         employees who provided minor misrepresentations that would not have
         affected DAS's decision to award parking permits to legitimate car
         pools.    We also found 22 employees who did not participate in
         legitimate car pools because they provided false information to
         obtain parking permits. Of the 22, 11 employees claimed that they
         did not intend to provide false information. We believe that,
         because these employees often provided false statements on more
         than one application, the false statements were made in reckless
         disregard of the truth.      We also identified 11 employees who
         admitted, or did not contest our conclusion, that they
         intentionally submitted false statements so that they could obtain
         subsidized parking privileges. Based on the false statements of
         these 22 empl-oyees,NSF subsidized the parking costs of employees
         who did not have legitimate car pools.

         Findings of Minor Misrepresentations
         We found that 21 employees made minor misrepresentations on their
         parking permit applications that did not affect the awarding of a
permit to ' a legitimate car pool.             Examples of minor
misrepresentations are:    inaccurately listing the frequency of
riders in the car pool; listing SCD1s for non-federal employees;
and listing persons who dropped out of the car pool as riders. We
found that the most common of these was the inaccurate listing of
riders' frequency. When applicants were questioned about this,
their response was that they did not understand how to list the   -
frequency of their riders o n the application forms. As a result,
part-time riders were often misrepresented as full-time riders, for
which car pools were awarded more points in the parking permit
competition. Although these applicants showed no intent to deceive
NSF, they clearly ignored or overlooked the instructions on the
back of the application forms, which state how to represent the
frequency of riders in the car pool.        However, because these
applicants actually had sufficient riders to constitute a car pool,
the subsidization of their car pool was not inappropriate and
caused no loss to NSF.

False Statements Made in Reckless Disregard of the Truth              ~
                                                                      I

We found 11 employees who did not admit to intentional
falsification, but, in our view, nonetheless acted in reckless
disregard of the truth by providing material false statements on
their parking permit applications. Of the 11 employees, 9 were
represented on the application forms as principal drivers, and 2
were represented as car pool riders. Although instructions for
filling out application forms are stated on the back of the
application forms, these employees stated that their false
statements were unintentional and due to either ignorance or a
misunderstanding of applicable instructions and regulations.
However, we often found that these employees repeatedly provided
false statements, and that they would not have been eligible for a
car pool permit had accurate information been listed. Car pool
participants are expected to read the instructions before filling
out permit applications.      Participants are also expected to
understand and abide by parking permit regulations that are clearly
defined in the semiannual bulletins issued to all NSF staff.
Overall, we found that this information was repeatedly ignored or
overlooked by these employees, which demonstrates a reckless
disregard for the truth.
For example, we found that the principal driver of a car pool
falsely represented her two part-time riders as full-time on the
March 1991, September 1991, March 1992, and September 1992 parking
permit applications. From April 1991 to February 1993, the riders
were present only 3 to 4 days per month, and the principal driver
often drove to work alone. She stated that she was not aware that
she needed a full-time rider to qualify for a car pool parking
permit.    We found, however, that the principal driver had
participated in the car pool program for approximately 15 years,
and that each rider had participated for several years.        The
principal driver expressed remorse at violating the parking permit
regulations and offered to reimburse NSF for the funds spent on
subsidizing her parking.
In another case, a principal driver falsely represented two part-
time riders a                                                 permit
appllcatlon. One of these riders dropped out of the car pool in
April 1992, and the other rider rode in the car pool approximately
3 days per week throughout the 6-month period. On the September
1992 application, the principal driver continued to represent one
part-time rider as full-time, though he still rode an average of 3
days per week. The principal driver also falsely represented one
rider as having an SCD when that rider was not a federal employee.
The principal driver stated that she did not understand that car
pools are required to have at least two full-timeparticipants, and
she stated that she did not mean to misrepresent her riders as
full-time. However, NSF subsidized her parking from ~ p r i l1992 to
January 1993 based on false statements submitted on her
applications. The principal driver voluntarily terminated her car
pool in January 1993.

Intentional False Statements
We found that 11 employees intentionally provided material false
statements on their parking permit applications. Of these 11           I
employees, 4 were listed on the application form as principal
drivers, and 7 were listed as car pool riders. In each case, we
found that the participant knowingly, and often repeatedly,
submitted false statements to receive a parking subsidy to which
they were not entitled.
For example, we found that the principal driver of a car pool, who
had participated in the NSF parking permit program for several
years, submitted four applications with intentional false
statements. The principal driver admitted under oath that he
recruited employees to falsify ridership in order to obtain a
parking permit. We found that on the September 1992 parking permit
application, the driver falsely represented his two part-time
riders as full-time. On the March 1991, September 1991, and March
1992 applications, the driver recruited other employees to sign his
application as full-time riders so that he could qualify for a
parking permit. We found that six of the recruited employees did
not ride in the car pool. Four of the six employees subsequently
stated under oath that they never intended to ride in the car pool,
and that they provided false statements on the application forms to
help the principal driver obtain a parking permit. We also found
that the principal driver often drove a two-seated sports car to
work, even though three or more car pool participants were listed
on each application. We determined that during the four semiannual
periods, there were no full-time riders in the car pool and
concluded that the driver had falsely represented himself as having
a car pool from April 1991 to January 1993.
In a similar case, we found that an NSF employee intentionally
submitted false statements on three car pool applications that
represented her as being a member of a car pool. In March 1991,
   - -employee
this  - KSP began
a rellow
                     riding in a car pool on a part-time basis with
               employee and friend. In the summer of 1991, the
friend dropped out of the car pool, and the employee began driving
to work alone, using the friend's parking permit. When the parking
permit expired, the employee continued to submit parking permit
applications with the assistance of her friend. The employee
submitted applications in September 1991, March 1992, and September
1992, listing the names of four false riders. Of the four riders,
we found that three intentionally misrepresented that they rode in
the car pool. Though they stated under oath that they did not ride
in the car pool and did not intend to ride in the car pool, these
three persons signed the application forms to help the driver
obtain a parking permit.    The fourth person had retired from NSF
in December 1991; before her retirement she used public
transportation (bus) to commute to work. This person did not sign
any of the parking permit applications, and she was not aware that
her name was listed on the forms. We concluded that the NSF
employee had falsely represented herself as having a car pool from
September 1991 to December 1992. Moreover, this employee provided
false statements during two interviews and while providing a
statement under oath.

Systemic Weaknesses in the Permit Application Process
We found that several systemic weaknesses existed in the parking
permit application process. We found that the semiannual bulletins
and the parking permit application forms did not contain provisions
for updating car pool information during semiannual periods. Thus,
the principal driver often did not know the procedures for updating
the application form if a rider listed on the form dropped out of
a car pool shortly after the parking permit was awarded. In one
case, we found that during a 6-month period, two full-time riders
and one part-time rider dropped out of a car pool, all within 1
month of the permit being awarded. The principal driver claimed
that he did not know how to report these changes, which had left
him without a legitimate car pool for several months.
We found another systemic weakness in the lack of provisions
prohibiting employees from signing application forms for one
another. We identified several instances where this had occurred,
in some cases with the employee's permission, and in other cases,
to falsify ridership. We also found the need for applicants to
certify their understanding of the parking program. We believe
that a provision requiring the signature of all applicants,
attesting to their understanding of car pool eligibility and
application rules, would help to ensure fewer violations in the
future.

Conclusions
Twenty- one employees made minor mi~rppr~e~~entatbm
                                               ~n-0
permit applications. We considered these misrepresentations to be
the least serious, because they did not affect the proper awarding
of parking permits, and thus did not cause NSF to subsidize
illegitimate car pools.       In many of the cases where minor
misrepresentations were found, we counseled the employees, most
often the principal drivers, about car pool requirements and the
importance of accurately representing information on their parking
permit applications.
Eleven employees, both principal drivers and riders, intentionally
made false statements that caused NSF to award permits to and
subsidize illegitimate car pools. Another 11 employees made false
statements in reckless disregard of the truth. Even if these
applicants did not intend to provide false information, they
nevertheless caused NSF to award permits to, and subsidize
illegitimate car pools.
Overall, we identified extensive false statements on NSF parking       I
permit applications, which supports widespread abuse of the parking
permit program. By subsidizing illegitimate car pools, NSF wasted
approximately $ 1 2 , 5006 over the past 2 years.
All of the false statements and minor misrepresentations were made
despite clearly stated information regarding car pool regulations
and application rules.    This information was contained in the
semiannual parking permit bulletins, as well as printed directly on
the back of all parking permit application forms. We believe that
this information was ignored or overlooked by many persons, often
repeatedly, over several years.
We also identified several systemic weaknesses that exist in the
parking permit program.     Those weaknesses include a lack of
provisions for updating car pool applications and for prohibiting
employees from signing application forms for one another. We also
identified the need for a signed statement certifying that
employees understand eligibility and application rules for car
pools.




     6 ~ h i sfigure was derived by adding the number of months each
illegitimate car pool was subsidized (yielding a total of 154
months), then multiplying by the applicable monthly parking rate.
         Recommendations

         Based upon our findings and conclusions, we recommend that DAS:
       (1) Clarify application instructions and explain more clearlv the
-ystmawaraing             or points;
         (2)    Emphasize driver    responsibility   for   the   accuracy   of
         information submitted;
         (3) Notify employees that changes in car pool membership must be
         reported to DAS as they occur, and that employees may not sign          '
         application forms for one another; and
         (4)  Require all car pool applicants to sign an acknowledgement of
         understanding of car pool regulations and application rules..

         DAS Response

         DAS has accepted our recommendations and has implemented them. DAS
         has also decided to eliminate 31 car pool parking permits, both in
         response to our investigation and in an effort to ease budgetary
         constraints. This will result in a cost savings of over $31,000
         per year.
         In addition, in response to the widespread abuse we found in the
         parking permit program, we recommend that:
         (5) NSF review the actions of individual employees in this matter
         to determine whether disciplinary action is appropriate.7
         (6) NSF's Director issue a memorandum to all staff, advising them
         of the extensive abuse that was found in the parking permit program
         and informing all employees that they must be truthful when
         applying for federal employment privileges.




              7 ~ u pre-decisional
                    r              recommendations on disciplinary action for
         specific employees are in a separate report.
                                          9
            MEMORANDUM


            DATE:        April 16, 1993

F   R   O     M   :      UIrector, vtrlce oflrrformatian-and-mana~ement

            SUBJECT:     Response to Report of Investigation - Systemic Recommendations
                         (OIG Case Number 192030008)

            TO:          Inspector General


            The Office of Information and Resource Management has reviewed the subject report,
            "Abuse of Car Pool Program by NSF Employees," and concurs with the report's
            systemic findings and recommendations. As noted in the report, the four
            recommendations have already been implemented by the-Division of Administrative
            Services (DAS).

            The recommendations, which were first made to DAS in discussions held during the
            OIG's review of the car pool program, were incorporated in NSF Bulletin No. 93-06
            issued March 4, 1993. 'The Bulletin announced the competition for parking permits for
            the April I,1993 - Septerr~ber30, 1993 period and implemented the OIG's
            recommendations in informational materials, and the newly-created Acknowledgement
            Form, attached to the Bulletin.

            In addition, I plan to issue a Bulletin next week to all employees on the parking
            program findings.



                                                    Constance K. McLindon
                    NATIONAL SCIENCE FOUNDATION
                     OFFICE OF INFORMATION AND
                        RESOURCE MANAGEMENT
                     washington, D. C. 20550
                       NSF BULLETIN NO. 93-15
                                                 April 28, 1993
ADMINISTRATION AND MANAGEMENT
SUBJECT:   Parking Permit Application Problems

A recent review of the NSF Employee Parking Program, conducted by
the Office of the Inspector General, revealed that many of the
applications for car pool parking permits contained inaccurate
information.
This is to remind current and prospective participants in the car
pool subsidy program that they are personally responsible for
assuring that all information on permit applications is accurate.
Changes in ridership status must be conveyed to the Division of
Administrative Services as soon as they occur.
Individuals who benefit from the parking subsidy as a result of
inaccurate or misleading information about their eligibility are
subject to the loss of participation in the program as well as
disciplinary actions including reprimands, suspensions or removal
from Federal employment.



                                &&&       d/t(&
                                Constance K. McLindon
                                Director
                                Office of Information and
                                  Resource Management


Distribution: All Employees
Cancellation Bate: Effective Until Cancelled
Originating Unit: ~ivisionof ~dministrativeServices
                      NATIONAL SCIENCE FOUNDATION
                       OFFICE OF INFORMATION AND
                          RESOURCE MANAGEMENT
                       washington, D. C. 20550
                       NSF BULLETIN NO. 93-06

                                                   March 4, 1993


ADMINISTRATION AND MANAGEMENT
SUBJECT:     NSF Employee Parking   - April   1, 1993 through
             September 30, 1993
The Division of ~dministrative Services is currently accepting
applications for parking permits for the period April 1, 1993
through September 30, 1993.    Members of carpools (two or more
people commuting to work on a daily basis) or persons with
disabilities may apply for the permits.    The monthly charge to
eligible carpools will be $84.00 during this period.
Applications will be competitively ranked for eligibility in
accordance with the criteria described on the. attachment to this
bulletin.   However, due to budget constraints, the number of
available parking spaces will be reduced for the carpool
competition scheduled for April through September 1993. While it
is anticipated that spaces available will be sufficient to include
carpools ranked in the 30 to 40 point range, carpools falling below
this range may wish to consider expansion of their ridership.
Employees may apply for a permit by submitting a completed
#*Applicationfor Parking Permitw (NSF Form 566) to the NSF Cashier
in Room 248 not later than close of business March 12, 1993.
Information on application procedures is provided in the attachment
to this bulletin.     Questions regarding the program should be
referred to Veronica Bankins at 357-7922.



                                    r@,d&d4&&
                                     onstance K. McLindon
                                    Director
                                    Office of Information
                                      and Resource Management



Attachment

Distribution: All Employees
Cancellation Date: September 30, 1993
Originating Unit: ~ivisionof Administrative Services
                                                                                                      I
                                 APPLICATION PROCEDURES
                                                                                                      I




         LOCATIONS

                        f f~ r
A p s 1 i - c - a t i ~ n        m   s   r   m   a   r    e   ~   ~   a   i   l   -   a   a   b
              -   G Street                   Room 248
              -   L Street                   Room 602
              -  Vermont Ave                 Room V-502

         INSTRUCTIONS

         See the reverse side of the application form for instructions on
         completing the Application for Parking permit.
         All information, including carpool control numbers, employee
         payroll numbers and service computation dates must be legible and
         correct.
         Non-NSF riders must list business addresses and telephone numbers
         where they may be contacted for verification.
         Incorrectly completed forms will be returned and will not be
         included in this competition unless corrected and resubmitted not
         later than March 12, 1993.


         SIGNATURES
                                                                                                  I
         Applications must be signed by all carpool participants.
         Individuals may not sign for one another. If an applicant is on
         leave, the cashier must be informed; the applicant must come to the
         Cashier's station and sign the form within 8 hours after his/her
         return to work.

         SUBMISSION                                                                               I
                                                                                                  I
         LOCATION. Forms must be submitted to the NSF Cashier in Room 248.
         The Cashier is the point of contact for information on completion
         of parking applications.
         REQUIREMENTS;   Forms must be received not later than close of
         business on March 12, 1993.
         Persons with disabilities who hold current parking permits must                          1
         submit new applications. Renewal is subject to re-evaluation and                         i
         certification by the Director, Health Services.
             ELIGIBILITY CRITERIA AND BOUNDARY RESTRICTION
ELIGIBILITY CRITERIA

Carpools will be ranked for eligibility by a point system and
permits will be issued to each principal driver in accordance with
the ranking.
     POINT
     VALUE                         ELEMENT

     10      for each NSF full-time employee in the carpool
      1      for each year of Federal service for each rider
     10% part-time riders will be given 10% for each one-way trip
         taken (NOTE: part-time is defined as a minimum of three
         one-way trips per week             erson. Examples: (1)
         3 one-way trips per                oints; (2) 5 one-way
         trips per week
When applications exceed spaces available, ties will be resolved in
the following order of precedence:
     1.      carpools with larger numbers of NSF personnel
     2.      carpools with larger numbers of total riders
The Procurement Section, DAS, will maintain a waiting list in
priority order for interim permit assignments due to carpool
membership turnover.
BOUNDARY RESTRICTIONS

Because the point system is being used to rank applications,
boundaries previously noted in NSF Manual 1, Chapter V-200,
Subchapter 252, are no longer applicable.
CHANGES I N RIDERSHIP

Due to changes caused by the impending relocation, your assistance
is essential in keeping carpooling information current. Therefore,
DAS must be officially notified (e:mail, letter or memo) by a
member of the carpool of the following changes within 24 hours of
any of these.occurrences:
1.   -    one or more riders drop from the carpool
2.   -    one or more riders added to the carpool
3.   -    a combination of 1 and 2 above
4.   -    anticipated temporary reduction in the number of riders
          for 30 days or more (ie: due to leave, travel, etc)
                      Abuse of Carpool Program by NSF h p l o y e e s

                       Recommendations Resardins     individualsi

     We recommend the imposition of sanctions on employees who have
7-fea-rl-y-abu~edtt+~-~a-r-3ci~--9yat~~hef 4-se--statemxa-t pro-d
     by numerous employees plainly violated parking permit application
     regulations requiring the accuracy of all information submitted.
     In some cases, employees intentionally provided false statements to
     fraudulently obtain car pool parking permits. In other cases,
     employees' reckless and repeated false statements caused NSF to
     subsidize the parking of employees who did not have legitimate car
     pools. 2
     Twenty-one employees provided minor misrepresentations.       These
     employees shqwed no intent to deceive NSF, and the subsidization of
     their car pools was not inappropriate. Nonetheless, they clearly
     ignored or overlooked the instructions on the back of the
     application forms, and in most cases repeatedly submitted
     inaccurate information. We recommend that warning letters be sent
     to the following 21 employees:          a




          l ~ h e purpose of this report is to advise NSF of our
     recommendations for sanctions against certain employees for their
     actions in this matter. Under the Inspector General Act of 1978,
     as amended, we have authority only to recommend, not to impose,
     sanctions.     Accordingly, it is our view that this is a pre-
     decisional document, the disclosure of which would constitute a
     clearly unwarranted invasion of the personal privacy of the persons
     discussed, which NSF should therefore withhold from the public
     under exemption five of the Freedom of Information Act, 5 U.S.C. §
     552 (b)( 5 ) .
          2 ~ have
              e    detailed supporting documentation of our findings in
     each individual case. Management officials may contact our office
     if they wish to review this documentation.
i
     obtaining a car pool parking permit (these employees frequently
     drove to work alone). We determined that the actions o f these
     three employees were the most egregious and abusive of all            1
     violations. We based this determination on the following:
          o   All three employees knowingly and repeatedly submitted
              false statements in order to receive parking subsidies to
              which they were not entitled.
          o   All three caused extensive loss to NSF through the
              subsidization of illegitimate car pools.
          o   The financial loss to NSF caused by these employees
              amounted to over $5,000 of the $12,000 total loss.
          o   a      n      d b   o    t   h provided false statements
              to the Investigations Unlt while under oath.

          O   F            attempted to obtain further subsidized
              par ing even after his abuse was uncovered and he was
              informed that he was no longer eligible to apply for a car
              pool permit.
     We believe that letters of reprimand are appropriate for these
,I
     employees. Also, because we consider their actions to be serious,
     we recommend that NSF consider further administrative action
     against these employees, including, but not limited to,
     reimbursement to NSF for the parking subsidies which they
     fraudulently obtained.   The following table displays the loss
     caused to NSF by these employees.
    MEMORANDUM


    DATE:         April 16, 1993



    SUBJECT:      Response to Report of Investigation - Systemic Recommendations
                  (OIG Case Number 192030008)

    TO:           Inspector General


    The Office of Information and Resource Management has reviewed the subject report,
    "Abuse of Car Pool Program by NSF Employees," and concurs with the report's
    systemic findings and recommendations. As noted in the report, the four
    recommendations have already been implemented by the Division of Administrative
    Services (DAS).

    The recommendations, which were First made to DAS in discussions held during the
    OIG's review of the car pool program, were incorporated in NSF Bulletin No. 93-06
    issued March 4,- 1993. 'The-Bulletin announced the ~ o ~ p e t i t i ofor
                                                                            n parking permits for
)   the April 1, 1993 - September 30, 1993 period and implemented the OIG's
    recommendations in informational materials, and the newly-created Acknowledgement
    Form, attached to the Bulletin.

    In addition, I plan to issue a Bulletin next week to all employees on the parking
    program findings.
